ORIGINAL
Supreme Court, U.S.
FILED

1#

JUN 2 9 2020
OFFICE OF THE CLERK

3n ®fie Supreme Court of tfje tHntteb States
RUTH TORRES, Petitioner
v.
Marie Diaz, Mark Galvan, Pursuit of Excellence, Inc., et al, Dallas Fort Worth
International Airport Board, Respondents

ON PETITION FOR A WRIT OF CERTIORARI TO
FIFTH DISTRICT AT TEXAS OF DALLAS
Fifth Court of Appeals, Cause No. 05-18-00676-CV,
And the 44th District Court for Dallas County,
Cause No. DC-16-08711, Trial Court Bonnie Goldstein

PETITION FOR WRIT OF CERTIORARI
On Interlocutory Appeal- Texas Citizens Participation Act

Ruth Torres, Pro Se
PO Box 224441
Dallas, TX 75222
Tel. (214) 680-9119
Email: t.ruth828@icloud.com

PETITIONER REQUESTS ORAL ARGUMENT

Page 1 of 58

QUESTIONS PRESENTED
Issue V Is a state anti-Slapp restriction seeking dismissal within 60 days of the
filing of claims (ignoring later legal actions) unconstitutional when the claims are
baseless and the whistleblower is being retaliated against by abuse of process and
suffering violations of constitutional rights?
Issue 2‘ When the state Supreme Court refuses to perform duty by denial of review
of a lower court’s order which is directly contrary to law and shows clear error, does
this constitute lack of substantive due process and equal protections under the US
Constitution Amendments Four, Five and Fourteen?
Issue 3^ The Texas Supreme Court failed to perform duty to review and correct clear
errors by the court of appeals failure to review de novo and making conclusions
based on the flawed premise that a valid and enforceable contract exists and that
Petitioner had access to and used POE’s “trade secrets”, facts hotly disputed and yet
to be determined by a jury, adopting Respondent POE’s conclusory and
unsubstantiated claims while ignoring relevant facts and denying Petitioners
ability to set hearings for pleadings and be heard.
Issue 4- The Texas Supreme Court failed to perform duty to review when the court
of appeals erred in finding the motion to dismiss under TCPA is untimely, when one
day late due to e*filing technical difficulty raised to the trial court 20 minute
hearing for eight (8) outstanding motions which POE dominated, reflected in the
record, when further record was prevented by order of trial court and during
statutorily required stay. Good Cause existed to grant Petitioner’s request and
Texas courts have abused discretion and failed to perform duty.
Issue 5: The Texas Supreme Court failed to perform duty to review when the court
of appeals erred in asserting the Act includes requirements and limitations which
in fact it does not to deny relief on the merits when motion to dismiss under TCPA
was timely due to over 35 legal actions which triggered new 60 day deadline,
additionally new legal actions violating Petitioners constitutional rights have
occurred during statutorily required stay.
Issue 6* The Texas Supreme Court failed to perform duty to review when the court
of appeals erred in asserting that Petitioner did not file motions to dismiss the legal
actions as dozens of Petitioners motions contents request the court deny POE’s
requests and provide relief while asserting violation of constitutional rights.

Page 2 of 58

Issue T- The Texas Supreme Court failed to perform duty to review when the court
of appeals refused to perform ministerial duty to find orders issued during
statutorily required stay are null and void in accordance with statute and not
dependent on timeliness of motion which preceded the issuance of those orders.
Such circular reasoning would establish a new and erroneous precedent, which is
reversible error.

Page 3 of 58

IDENTITY OF PARTIES AND COUNSEL & RELATED CASES
All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is
as follows:
Petitioner

Ruth Torres (Pro Se)

Respondents

Pursuit of Excellence, Inc.,
Marie Diaz,
Mark Galvan,
Pursuit of Excellence HR, Inc.,
Pursuit of Excellence, Northeast, Inc.,
Pursuit of Excellence Holdings, LLC.,
Pursuit of Excellence Texas LLC,
Pursuit of Excellence Texas 2, LLC.,
Pursuit of Excellence Texas 3, LLC.,
P4S Consulting, LLC.,
Cielo Creations, LLC.,
Cielo Preston Forest, LLC.
Dallas Fort Worth International Airport Board

Trial Court:

Hon. Bonnie Goldstein, Presiding Judge
101st District Court
George L. Allen, Sr. Courts Bldg.
600 Commerce Street, 6th Floor West
Dallas, Texas 75202
imckinnon@dallascourts.org
(214)653-7427

Respondent:

Dallas Fort Worth International Airport Board
Henry Wehrmann

Counsel:

State Bar No. 21076400
Farrow-Gillespie Heath Witter LLP
Henrv@fghwlaw.com

Page 4 of 58

1700 Pacific Avenue, Suite 3700
Dallas, TX 75201
(214) 361-5600

Marie Diaz, Mark Galvan,

Respondent POE:

Pursuit of Excellence, Inc. et al, Pursuit of Excellence HR,
Inc., Pursuit of Excellence, Northeast, Inc., Pursuit of
Excellence Holdings, LLC., Pursuit of Excellence Texas
LLC, Pursuit of Excellence Texas 2, LLC., Pursuit of
Excellence Texas 3, LLC., P4S Consulting, LLC., Cielo
Creations, LLC., Cielo Preston Forest, LLC., et al,
Dallas Fort Worth International Airport Board,
Harold Jones, CC Wood, C. John Scheef,
Anna S. Brooks, Brandy Chambers

Trial Counsel for POE:

C. John Scheef, III
State Bar No. 17735585
SCHEEF & STONE, LLP
John.scheef@solidcounsel.com
2600 Network Blvd., Suite 400
Frisco, Texas 75034
(214) 472-2114

Byron Henry
SCHEEF & STONE, LLP
Byron.Henry@solidcounsel.com
2600 Network Blvd., Suite 400
Frisco, Texas 75034
(214) 472-2123

Page 5 of 58

Anna S. Brooks
State Bar No. 24074147
SCHEEF & STONE, LLP
Anna.bi-ooks@solidcounsel.com
2600 Network Blvd., Suite 400
Frisco, Texas 75034
(214) 472*2123
Andrea Bouressa
SCHEEF & STONE, LLP
Andrea.Bouressa@solidcounsel.com
2600 Network Blvd., Suite 400
Frisco, Texas 75034
(214) 472-2123
Brandy K. Chambers
State Bar No. 24041169
CHAMBERS LEGAL, PLLC
brandv@chamberslegalnllc.com
P.O. Box 550663
Dallas, Texas 75355
(214) 315-5673

Page 6 of 58

REFERENCES:
• Marie Diaz, Mark Galvan, Pursuit of Excellence, Inc. et al, Pursuit of Excellence HR, Inc.,
Pursuit of Excellence, Northeast, Inc., Pursuit of Excellence Holdings, LLC., Pursuit of
Excellence Texas LLC, Pursuit of Excellence Texas 2, LLC., Pursuit of Excellence Texas 3,
LLC., P4S Consulting, LLC., Cielo Creations, LLC., Cielo Preston Forest, LLC., et al, are
collectively referred to as “POE”.
• Dallas Fort Worth International Airport Board is referred to as “DFW”.
• Fifth Court of Appeals is referred to as “COA”.
• Texas Open Meeting Act (“TOMA”),
• Public Information Act (“PIA”),
• Affordable Care Act (“ACA”),
• Family Medical Leave Act (“FMLA”),
• Texas Citizens Participation Act (“TCPA”),
• Temporary Injunction (“TI”)

Page 7 of 58

NOTICE OF RELATED CASES:
• Trial Case: DC-16-08711, 44thDistrict Court, Judge Goldstein has multiple
appeals:
a. 05-18‘00774-CV (on 16 trial court orders, dismissed due to clerk’s
refusal to submit record, unchallenged inability to pay on file). TX
Supreme Court denied review. SCOTUS denied Writ of Certiorari, 195208.
b. 05-18-00546‘CV (premature appeal dismissed on lack of jurisdiction
after denying consolidation with 05-18-00774-CV, awarding costs to
POE although affidavit of inability to pay on file). TX Supreme Court
denied review.
c. 05-18-00675'CV on interlocutory order Granting DFW’s Plea to
Jurisdiction. Affirmed by Fifth COA on erroneous application of one
case which is not consistent with the issues of this case. TX Supreme
Court denied review. Appeal due to SCOTUS.
d. 05-18-00676-CV on interlocutory order denying Petitioner’s Motion to
Dismiss under TCPA. Affirmed by Fifth COA with multiple errors of
fact and law. TX Supreme Court denied review.
• Trial Case: DC-17-08581, 101st District Court, Judge Staci Williams. POE
appealed trial order on contempt for failing to comply with 5th order on
discovery, Case No. 05-18'00672-CV. Order & Opinion issued lifting stay.
Motions for Show Cause pending before trial court, POE refuses to comply
with discovery requests citing the TI issued by Judge Goldstein and matter
appealed to COA and here. POE 2nd set of attorneys have moved for trial
court stay and withdrawal with same grounds as first attorneys, only in DC1708581, yet not seeking withdrawal from case before the 44th district court
or cases before the court of appeals, all representing the same parties. Case
is pending orders on Plaintiffs motions for show cause and contempt for over
a year (defendants refuse to comply with discovery and judge will not issue
rulings) also pending special set for trial.
• DC-20-07071, Respondents seek default judgments against Petitioner’s
businesses for claims which fail to satisfy elements, are abuse of process, lack
right to sue, Texas courts lack jurisdiction and are directly responsive to
Petitioner speaking to DFW Airport Board. The Unauthorized Practice of
Law Committee for the Supreme Court of Texas brought suit, violating
Petitioners constitutional rights to free speech.

Page 8 of 58

ORAL ARGUMENT
• As this is a complicated case, the Court may find oral argument beneficial to
clarify and respond to questions.

Page 9 of 58

TABLE OF CONTENTS
QUESTIONS PRESENTED..................................................................

2

IDENTITY OF PARTIES AND COUNSEL & RELATED CASES

4

TABLE OF CONTENTS................................................................................

10

INDEX TO APPENDICES............................................................................

12

TABLE OF AUTHORITIES CITED............................................................

12

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Bookmark not defined.

Error!

OPINIONS BELOW...............................................
JURISDICTION......................................................

15
16

STATEMENT OF THE CASE.............................

18

REASONS FOR GRANTING THE PETITION

21

Issue 1: Is restriction on request for relief from infringement on constitutional
rights unconstitutional? Is a state anti'Slapp restriction which requires motion to
dismiss within 60 days of the filing of claims (ignoring later legal actions),
thereby causing whistleblower to suffer on*going violations of constitutional rights
due to non-filing within 60 days unconstitutional?
Issue 2- When the state Supreme Court refuses to perform duty by denial of
review of a lower court’s order which is directly contrary to law and shows clear
error, does this constitute lack of substantive due process and equal protections
under the US Constitutional Amendments Four, Five and Fourteen?
Issue 3: Did the Texas Supreme Court fail to perform duty to review when the
court of appeals erred in finding the motion to dismiss under TCPA is untimely,
when one day late due to e-filing technical difficulty raised to the trial court 20
minute hearing for eight (8) outstanding motions which POE dominated, reflected
in the record, when further record was prevented by order of trial court and
during statutorily required stay?
Issue 4' Did the Texas Supreme Court fail to perform duty to review when the
court of appeals erred in asserting the Act includes requirements and limitations
which in fact it does not. to deny relief on the merits when motion to dismiss
under TCPA was timely due to over 35 legal actions which triggered new 60 day
deadline, additionally new legal actions violating Petitioners constitutional rights
have occurred during statutorily required stay?
Issue 5: Did the Texas Supreme Court failed to perform duty to review when the
court of appeals erred in asserting that Petitioner did not file motions to dismiss
the legal actions as dozens of Petitioners motions contents request the court deny

Page 10 of 58

POE’s requests and provide relief while asserting violation of constitutional
rights?
Issue 6: Did the Texas Supreme Court fail to perform duty to review when the
court of appeals refused to perform ministerial duty to find orders issued during
statutorily required stay are null and void in accordance with statute and not
dependent on timeliness of motion which preceded the issuance of those orders?
Would such circular reasoning establish a new and erroneous precedent, which is
reversible error?
Issue T- Does the significant level of financial incentives provided to the Texas
Judicial System through partisan campaign contributions, or even the appearance
of such, undermine the credibility and justice available for just cause against
government and big business parties, especially for minority and pro se litigants?
PRAYER

42

CERTIFICATIONS

42

Appendix A: Orders & Opinion Issued by Court of Appeals Fifth District of
Texas at Dallas................................................................................................................. 44
Appendix Eb Trial Court Orders................................................................................... 51
Appendix C: Texas Supreme Court Order.................................................................. 54
Appendix D:....................................................................................................................... 56
Exhibit 4- NAACP Addresses Important Issues to facilitate the Discussion
Regarding Proposed Changes for Selecting Memers of Texas’ Judiciary In the
Aftermath of the George Floyd Tragedy...................................................................... 56
Exhibit 5- Henry Wehrmann, Attorney for DFW Airport, sponsor for Trial Court
57
Judge Bonnie Goldstein
Exhibit 6: Texas Judiciary Campaign Contribution Records from non-partisan,
non-profit, FollowTheMoney.org
58

Page 11 of 58

INDEX TO APPENDICES
Appendix A: Exhibit V Orders & Opinion Issued by Court of Appeals Fifth
District of Texas at Dallas.................................................................................

44

Appendix B: Exhibit 2' Trial Court Orders

51

Appendix C: Exhibit 3: Texas Supreme Court Order

54

Appendix D:

56

Exhibit 4: NAACP Addresses Important Issues to facilitate the Discussion
Regarding Proposed Changes for Selecting Memers of Texas’ Judiciary In the
Aftermath of the George Floyd Tragedy................................................................ 56
Exhibit 5: Henry Wehrmann, Attorney for DFW Airport, sponsor for Trial Court
57
Judge Bonnie Goldstein
Exhibit 6: Texas Judiciary Campaign Contribution Records from non-partisan,
58
non-profit, FollowTheMoney.org

Page 12 of 58

TABLE OF AUTHORITIES CITED
*NOTE: Pro Se Petitioner lacks access to public law library resources to prepare
Writ due to Covid-19 closures. Therefore, Petitioner lacked access to research
federal cases.

Cases
ExxonMobil Pipeline Co. v. Coleman , 512 S.W.3d 895, 898 (Tex. 2017)
33
Galbraith Eng'g Consultants, Inc. v. Pochucha , 290 S.W.3d 863, 867 (Tex. 2009) ..33
Hauxhurst v. Austin’s Boat Tours, No. 03-17- 00288-CV, 2017 WL 1415109 at *3
33
(Tex. App.—Austin March 22, 2018, n.p.h.............................
33
Lippincott v. Whisenhunt, 462 S.W.3d 507, 509 (Tex. 2015)
33
Serafine I, 466 S.W.3d at 357.....................................................
Statutes
42 U.S. Code § 1983
Id. § 27.002.......................................................................................
TCPA 27.011 (b)..............................................................................
Tex. Civ. Prac. & R. Code § 27.001 (6)........................................
Tex. Civ. Prac. & Rem. Code § 27.005(c)....................................
Tex. Civ. Prac. & Rem. Code § 27.006(a)....................................
Tex. Civ. Prac. & Rem. Code §§ 27.003(a), .005(b);..................
TEX. CIV. PRAC. & REM. Code §51.014 (7).............................
TEX. CIV. PRAC. & REM. Code §51.014(a)..............................
TEX. CIV. PRAC. & REM. Code §51.014(b)..............................
Tex. Gov’t Code Ann. §§ 22.001 (a) and (c) (West)...................
TEX. R. APP. P. 56.1(a)..................................................................
TEX. R. APP. PROC. §44.1(a) and (b)........................................
Texas Civil Practice and Remedies Code §51.014(b)..............

Rules
TEX. R. APP. P. 9.4.............................
TEX. R. APP. P. 9.5.............................
Tex. R. App. Proc. § 44.1(b)................
Tex. R. App. Proc. §44.1 (b)................
Tex. R. App. Proc. §44.1(a).................
TEX. R. CIV. P. §21 CD (6).................
TEX. R. CIV. P. §21 (f)(6)...................
Texas Rules of Civil Procedure §18a

Page 13 of 58

Constitutional Provisions
28 U.S.C. § 1257(a)........................
U.S. Const. Amend. 1....................
U.S. Const. Amend. 1, 4, 5 and 14
U.S. Const. Amend. 1, and 14......
U.S. Const. Amend. 14..................
U.S. Const. Amend. 4....................
U.S. Const. Amend. 5....................

16
21, 22, 37
38

31
34
34

Federal Regulations
Patient Protection and Affordable Care Act, 42 U.S.C. § 18001 et seq. (2010)
("ACA")
Federal Labor Standards Act, 29 U.S.C. 201 • 219 (1938) ("FLSA")................
Family Medical Leave Act, 29 U.S.C. 28 ("FMLA").......................................
Occupational Safety and Health Act, 29 U.S.C. 15 (1970), ("OSHA")..............
USCIS

Page 14 of 58

IN THE SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.

OPINIONS BELOW

[x] For cases from the state courts'
The opinion of the highest state court to review the merits appears at Appendix A to
the petition and is
[ ] reported at: or,
[ ] has been designated for publication but is not yet reported; or,
[X ] is unpublished. Fifth Court of Appeals, Texas. 05-18*00676*
CV (Tex. App. 2019); Ruth Torres v. Marie Diaz, Mark Galvan, Pursuit of
Excellence, Inc. Dallas/Ft. Worth International Airport, et al.
The opinion (orders) of the trial court appears at Appendix B to the petition and is
[ ] reported at

, or,

[ ] has been designated for publication but is not yet reported; or,
[ X ] are unpublished.

[x] For cases from the state courts:
The date on which the highest state court decided my case was December 6,
2019, Denying Petition for Review and on January 31, 2020 Denied Motion for
Rehearing.
A copy of both decisions appear at Appendix C.

Page 15 of 58

JURISDICTION
The jurisdiction of this Court is applicable under 28 U.S.C. § 1257(a), as
Texas’ anti-Slapp legislation, The Texas Citizens Participation Act, includes a
restriction which is unconstitutional in denying ability to seek relief from
constitutional violations if motion to dismiss is not brought within 60 days of
original claim filing. This restriction should be declared unconstitutional as it is
directly contract to and repugnant to the Constitution of the United States. TCPA,
as written at the time applicable to this case and subsequently weakened, limits the
right to seek dismissal within 60 days of claim filing and failure to do so allows for
years of violations of constitutional rights. Further, immunity is claimed under the
Constitution allowing for constitutional violations by government entities with
impunity. The result of these is repugnant to the Constitution and of such
importance to the jurisprudence and in the interest of justice and public policy that
it requires correction by The Supreme Court of the United States.
The varying state anti-Slapp laws and lack of a federal anti-Slapp statute,
exposes conscientious citizens participating in government and revealing illegal acts
to retaliation and significant harm which is repugnant to the Constitution and of
such importance to the jurisprudence and denial of justice that it requires correction
by The Supreme Court of the United States.
Further, denial by the Texas Supreme Court to review and correct COA
errors denies the Petitioner substantive due process and equal protection rights and
allows ongoing retaliation against a whistleblower and indigent pro se party with

Page 16 of 58

egregious abuses of process and violations of Petitioners constitutional rights
presents errors of such importance to the jurisprudence, public policy and denial of
justice that it requires correction by The Supreme Court of the United States.
In addition, the COA failed to provide de novo review, has allowed trial court
orders which were an abuse of discretion, without reference to and directly contrary
to guiding rules and principles, to stand. The COA also incorrectly applied law
restricting protections provided under Texas’ anti-Slapp statute the Texas Citizens
Participation Act (“TCPA”) in a manner that Act does not specify. The ambiguous
language of TCPA as to “legal acts” was clarified by case law which the COA refused
to recognize.
The significant financial and partisan campaign contributions to Texas
judges undermines equity and justice, especially for minority and indigent parties
with claims against government entities and big business.

Page 17 of 58

STATEMENT OF THE CASE
1.

In underlying employment case, POE alleges breach of contract, tortuous
interference, defamation, misappropriation of trade secrets, HACA, against
Petitioner and her businesses (for which the court lacks jurisdiction and POE
lacks right to sue as abuses of process to gain default judgments against indigent
pro se party). POE claims are retaliation for Petitioner reporting POE and DFW
for illegal acts violating various state and federal laws. POE’s claims are wholly
retaliatory, conclusory, fail to satisfy claim elements or establish a prima facia
case. POE’s retaliatory actions against Petitioner and Petitioner’s business
entities have been numerous, on-going and egregiously violate statutes and
Petitioners constitutional rights since the filing of suit and continuing the last 4
years due to trial court denial to grant dismissal citing the state’s anti-Slapp
restriction of seeking dismissal within 60 days of service, ignoring statue
establishing duty to accept when one day late due to technical difficulty and
ignoring case law clarifying ambiguous statute language defining legal acts that
trigger new 60 day period.

2. Texas courts have an absolute requirement of motion for dismissal under the
Act within 60 days, therefore resulting in four years and counting of significant
harm and violation of Petitioners constitutional rights. Subsequently, the
Texas legislature weakened the anti-Slapp act increasing the risk of retaliation
to whistleblower workers.

Page 18 of 58

3. On interlocutory appeal, The Fifth Court of Appeals asserts a premise of facts,
that a legal contract exist, which is a matter hotly disputed not yet determined
by the jury to deny review on the merits alleging motion was untimely,
refusing to adhere to statute and case law to recognize legal actions as grounds
for dismissal of claims and making a mistake of fact in alleging Petitioner did
not raise the technical difficulty issue to explain one day of delay in e-filing
motion. Additionally, the trial court issued seven orders during statutorily
required stay. The Fifth COA refused to perform ministerial duty to declare
orders issued during stay as being null and void. The Texas Supreme Court
denied review.

4. Every time the Petitioner has exercised her right to petition either in the court
or speaking to a government body bringing the allegations and facts of this
case to their attention, Respondents have further retaliated and infringed upon
Petitioners constitutional rights including during the statutorily required stay
by filing complaint with suit brought by Unauthorized Practice of Law
Committee for the Supreme Court of Texas, for a situation outside of the
purpose of the committee, and seeking to deny Petitioner due process and
equal protections via injunction to notify the court it lacks jurisdiction for the
claims against Petitioners businesses and Respondents lack right to sue to
prevent default judgments simply because Petitioner cannot afford legal
representation for the businesses as required by Texas law.

Page 19 of 58

5. The level of financial incentive in the Texas Judicial system undermines the
credibility of the Courts and reveals root cause of inequities and injustices,
favoring government and big business and disproportionately impacting
minority and pro se litigants. The Texas Judicial system is compromised by
campaign donations that have maintained a one party control system for
decades at the Texas Supreme Court (with over $13.5 Million in donations) as
well as at the Fifth Court of Appeals until 2018.

6.

If this Court denies review, this Court would reinforce the extreme inequity,
lack of justice, due process and equal protections that this case reveals within
the Texas Judicial System and thereby be complicit.

Page 20 of 58

Reasons for Granting the Petition

Issue E Is a state anti-Slapp restriction which requires motion to dismiss within 60
days of the filing of claims (ignoring later legal actions) thereby causing
whistleblower to suffer on-going violations of constitutional rights due to non-filing
within 60 days, unconstitutional?
Is restriction on request for relief from infringement on constitutional rights
unconstitutional?

1.

No restriction to seek relief or dismissal of claims should be applicable when
there is an infringement to constitutional rights. Any such restriction violates
U.S. Const. Amend. 1, as the constitutional amendment prohibits any law from
violating or abridging the freedom of religion, freedom of speech, right to
assemble, and right to petition for redress of grievances without time frame
restrictions.

2. There is a lack of federal statute that allows for dismissal of baseless and
retaliatory claims due to a party exercising constitutional rights. Texas
implemented an ambiguous anti-Slapp statute, Texas Citizens Participation
Act (“TCPA”), TEX. CIV. PRAC. & REM. Code §27, which requires a dismissal
motion within 60 days of service, (a statute which has been further watered
down during the course of this case). The limitation to seek relief within 60
days of suit thereby imposes severe harm to be inflicted for years without cause
during the legal proceedings. No restriction to seek dismissal of claims should
be applicable when there is an infringement to constitutional rights. Such

Page 21 of 58

restriction violates U.S. Const. Amend. 1, because the statute prohibits or
abridges the freedom of speech, right to assemble, and right to petition for
grievances, without time frame restriction.

3.

Due to Texas Courts strict adherence to this 60 day limitation, ignoring
statute provision and reason to accept when one day late due to technical
difficulty, and refusal to recognize Texas case law clarifying ambiguous TCPA
language as to “legal acts” which trigger a new 60 day period, Petitioner has
been egregiously harmed and constitutional rights violated for four years and
counting.

4. The ambiguous language of TCPA statute did not define “legal acts” which
triggered a new 60 day period, however, state case law did finding that any
legal act including petitions or requests to the court which extended from the
claim(s) triggered a new 60 day period, law which the COA refused to recognize
and Texas Supreme Court denied review, thereby denying the Petitioner
substantive and procedural due process and equal protections.

5.

The “king” can and does do wrong, far too often and with impunity. The
United States of America is neither a monarchy or dictatorship. We were
established to be governed by the people, FOR the people. The ethical and legal
compliance standards for those in positions of power within any of the three

Page 22 of 58

branches of government should be of a higher standard, not lower than private
sector or non-existent. Government immunity is applicable when the actions
are in the best interest of the people for which the body is responsible and
should no longer be used as venue to abuse the positions and people they were
elected or appointed to represent without accountability.

6.

If this Court refuses to grant review, it allows government entities to displace
and violate state and federal laws through illegally issued contracts to perform
illegal acts with reasonable knowledge that the government agency vendor
(POE) would not be incompliance with Affordable Care Act (“ACA”) or Family
Medical Leave Act (“FMLA”) from contract issuance, allows for FMLA
retaliation

against whistleblower for opposing

or complaining

about

Respondents unlawful practice under FMLA. It allows government entities to
fail to perform ministerial acts to enforce compliance with federal laws and
contract terms such as the Prompt Pay Act while enjoying credit for utilization
of a woman / minority contractor thereby abusing the W/MBE program, which
is intended as adjustment for historical inequities, while hiding behind
governmental immunity. It allows for the court system to be used to attack
whistleblowers undermining individuals’ duty to act according to Biblical
principles, civic duty and participation in government, which are public policy
issues.

Page 23 of 58

7.

Further, the implications and ramifications of this case are significant for
national impact as the side-stepping of compliance with the Affordable Care
Act via misclassification of workers as 1099 contractors in violation of FLSA or
use of temporary staffing firms or temporary worker classification (terminating
and hiring workers between different names of temp agencies often without
any new hire paperwork to claim the employee is temporary even when the
individual is working the same job, at the same location, with the same
supervisor, for consecutive years) has been utilized by federal, state and
government entities as well individual employers affecting hundreds of
thousands of American workers who are working more and getting less
benefits, losing access to group medical benefits (the intent of ACA) but now
also losing paid-time off such as vacation, sick pay, as well as unemployment
benefits, workers compensation benefits, wage payment enforcement, etc.
(protections only available to “employees” not 1099 contractors), due to misclassifications and violations of the Federal Labor Standards Act. Misclassified workers are disproportionately women and minorities whom also
have higher mortality rates due to lack of access to insurance. These abuses
against workers have now been allowed almost unchecked to private employers
due to cost of litigation and defunding of government enforcement agencies
such as the Department of Labor. The abuses with impunity afforded via
government immunity undermines justice. Law firms lack interest to represent
due to inability to gain attorney fees from government entities.

Page 24 of 58

8.

The constitutional rights of US citizens and residents are being violated due
to the ability of government entities to act with impunity protected by
immunity as well as denial of duty, due process and equal protections by a
biased court system. The lack of reasonable protections against retaliation and
infringement of constitutional rights via abuse of the court system by wealthy
businesses and their unethical attorneys is exasperated by court bias against
pro se litigants and limited resources available to indigent litigants within the
civil court system.

9.

When parties conspire to violate state and federal laws, then retaliates
against a whistleblower including but not limited to denying earned wages,
violates the whistleblowers constitutional rights by unreasonable search and
seizure of personal property, infringes upon Petitioners freedom of speech,
freedom to petition, freedom to participate in government, freedom of religion,
causing Petitioner to suffer abuse of process and denial of due process and
equal protections, such harm should not continue for years due to lack of
federal anti-Slapp legislation and strict adherence to state anti-Slapp
requirement within 60 days of the filing of claims while ignoring subsequent
legal actions which violate constitutional rights.

10.Petitioner, Ruth Torres, pleads this Court to grant Writ of Certiorari as failure
to do so allows injustice on public policy issues on matters of national

Page 25 of 58

importance,

a failure to protect whistleblowers from retaliation and

infringement on their constitutional rights, enables the court system created to
promote and ensure justice as a weapon of abuse and injustice on pro se and
indigent parties by powerful governmental entities and large employers which
undermines future would'be whistleblowers from disclosure of illegal acts
based on fear of retaliation, knowing that they would suffer the same as
previous whistleblowers.

The lack of nationwide, consistent, unambiguous,

unnecessarily restrictive Whistleblower protections for workers of all worker
classifications (employee,

1099 contractor, temporary) working for the

government entity or any of its contractors or sub contractors, prohibiting
retaliatory actions for participation in government, causes significant harm to
whistleblowers for years as well as denial of substantial due process and equal
protections denies justice for indigent and pro se litigants, important public
policy issues for which the US Supreme Court’s intervention is necessary.

11. If this Court refuses to hear and rule on Plaintiffs Petition, injustice will
occur, which is a public policy issue affecting not just the Petitioner but all
individuals harmed by the actions at the root of this case; and other similar
situations which are bound to exist and reoccur. At the root of this case is
Petitioner’s actions as a whistleblower reporting Respondents for violating
various state laws on government procurement and contract processes, public
information and open meetings statutes, worker’s compensation laws, etc., and

Page 26 of 58

federal laws including: US Customs and Immigration statutes, Federal Labor
Standards Act, Affordable Care Act and Family Medical Leave Act which
potentially harmed several hundred workers under contracts totaling at least
$20 Million, as well as reporting a fire/ explosion hazard which violated OSHA.
Failure to grant certiorari allows government entities to displace and violate
state and federal laws through contracts while hiding behind governmental
immunity. It allows for the court system to be used to attack whistleblowers
undermining individuals’ duty to act according to Biblical principles, civic duty
and participation in government, which are public policy issues.

12. If Respondents are again successful in abusing the Courts to hide illegal acts,
wont it set precedent and perpetuate their strategy? Won’t it embolden others
to do the same? Since attorneys fees may not be recovered from government
entities law firms will not take the case on contingency and non-profit groups
lack the resources to accept this type of litigious and burdensome case, nor will
they be involved with cases involving government entities. Therefore, the
significant level of financial incentives from partisan elections by wealthy
businesses and law firms further undermines access to justice. How can the
indigent or pro se receive a fair trial in civil courts? How many cases will not be
filed or responded to by Pro Se litigants and therefore injustice will prevail in
more?

Page 27 of 58

13. Respondent POE initiated this case against Petitioner in retaliation of
Petitioner reporting violations of law to government entities and exercised
constitutional rights, including but not limited to:

a. The Fire Department for a fire/explosion hazard threatening
several dozen unknowing persons with threat of serious injury or
death by use and storage of propane tanks with open flames in the
basement of a 42 story office building, City Place Towers near
downtown Dallas;

b. DFW Airport Board, a government entity whose voting board is
appointed by the city councils of Dallas and Fort Worth, for its
contractor’s (POE) breach of contract, violations of state and federal
laws including but not limited illegally issuing contracts contrary to
state procurement statutes, violating open meetings act and public
information

requirements,

to

outsource

workers

depriving

potentially hundreds of predominantly minority and women
workers from health and benefits they were otherwise entitled to by
avoiding and displacing compliance with the Affordable Care Act
and Family Medical Leave Act while knowing the contractor (POE)
was violating the contract, various state and federal laws including
lacking workers compensation for workers at an international port

Page 28 of 58

violations of USCIS by shifting workers between entities to avoid
compliance with ACA and failing to properly complete 19 forms
required

and

purposefully

misclassifying

workers

as

1099

contractors in violation of FLSA, while insulating DFW from
liability under governmental immunity.

14. POE brought claims against Petitioners businesses, which had no legal
interactions with POE and therefore POE has no right to sue, and for which
Texas court lacks jurisdiction, in order to obtain default judgments due to lack
of Petitioners financial ability to hire an attorney. POE amended to bring
claims against a Florida entity which never operated in the State of Texas and
was dissolved five years before POE brought claims and against a Texas
Limited Liability Corporation which did not exist at the time of POE’s alleged
claims but whose only involvement between the parties was when Petitioner
completed a required speaker form and named Petitioners employer to appear
before

DFW

Airport’s

board,

exercising

participate

in

government.

Subsequently, during this case being on statutorily required stay through the
appeals process, POE directly or through their attorneys filed a complaint with
the Texas Supreme Court Committee for Unauthorized Practice of Law against
Petitioner for responding on behalf of Petitioners closed Florida corporation
and Texas LLC informing the trial court of the abuse of process in bringing
claims against Petitioners business entities for which POE had no right to sue

Page 29 of 58

and challenging the courts jurisdiction thereby attempting to prevent default
judgments as such challenge to jurisdiction preventing default judgments is
allowed by state case law, yet the trial court struck Petitioners pleading in its
entirety during the statutorily required stay, a violation of due process and
equal protections under U.S. Const. Amend. 14. The Texas Committee for the
Unauthorized Practice of Law has now determined to participate in the
retaliation against Petitioner bringing suit against Petitioner to gain a
permanent injunction which is contrary to the purpose of the committee since
Petitioner has not been compensated by any nor asserted that Petitioner is an
attorney but merely exercised right to petition and inform the court of the
facts. This action further harms and violates Petitioners constitutional rights
under U.S. Const. Amend. 1, and 14.

15. Therefore, if this Court refuses to hear and reverse orders issued, it allows
parties violating state and federal laws to successfully use the court system to
abuse, avoid accountability and retaliate against whistleblowers. POE has
already learned its strategy is effective in avoiding accountability when it
brought the exact same wholly conclusory causes of action as brought against
Plaintiff against its former accountant who informed POE’s client, a prime
contractor of Dallas Area Rapid Transit (DART) of POE’s illegal acts in billing.
(DC-10'14994, DC-10-07197). Since POE was successful using the court

Page 30 of 58

processes to attack the whistleblower in that case, it emboldened POE to use
the same strategy against Petitioner.

16. The new case filed by the Unauthorized Practice of Law Committee (DC-2007071) is an action which has occurred during the statutorily required stay in
this case and is retaliation for Petitioner’s exercise of freedom of speech and
should thereby trigger a new 60 day period to dismiss all claims and all related
cases per the application of the existing law which is unconstitutional with the
60 day limitation. However, based on Texas Courts prior rulings, Petitioner
has cause to believe a motion and appeal would end with the same results;
denial of review.

Issue 2. Denial of Review would deny Petitioner substantive due process under the
1st, 4th, 5th Amendments and due process and equal protections under 14th
Amendment of the US Constitution.

17. This Honorable Court should grant the Writ for Certirari as the Texas courts
have abused their discretion and issued orders without reference to and
directly contrary to guiding rules and principles and thereby denied Petitioner
due process. The trial court and 5th Court of Appeals reasoning limiting the Act
(which existed at the time) and denying Petitioner dismissal under TCPA is
contrary to the facts in this case as well as statute and prior rulings, including
but not limited to:

Page 31 of 58

1. Hawxhurst v. Austin's Boat Tours, 550 S.W.3d 220, 225-26 (Tex. App.
2018)
2. Hersh v. Tatum , 526 S.W.3d 462, 466 (Tex. 2017
3. ExxonMobil Pipeline Co. v. Coleman , 512 S.W.3d 895. 898 (Tex. 2017)
4. Serafine I, 466 S.W.3d at. 357
5. Galbraith Eng'g Consultants, Inc. v. Pochucha , 290 S.W.3d 863.
867 (Tex. 2009).
6. Lippincott v. Whisenhunt, 462 S.W.3d 507. 509 (Tex. 2015)
18. Petitioner has not only been harmed by Respondent POE’s baseless claims
but by the ongoing actions of all Respondents, the TX Courts and officers
connected to this case including but not limited to violation of Petitioners
rights to freedom of speech, freedom to petition, freedom of religion, freedom
from search and seizure of personal property, rights to substantial due process
and equal protections. The trial court orally ordered the Petitioner to agree to a
TI, which is void on its face due to failure to comply with statute and lacked a
bond. The TI restricted Petitioners rights to freedom of speech, freedom to
participate in government and required Petitioner to submit to seizure of
Petitioners personal property of an Iphone and laptop, without defining how
long the property would be retained in advance which was seven (7) weeks,
(See Terry v. Ohio, 392 U.S. 1, 88 S. Ct. 1868, 20L.Ed. 2d 889, United States v.
Place, 462 U.S. 696 (1983), and Soldal v. Cook County Ill, 113 S. Ct. 538 (2017))
to invade Petitioners privacy for the devises contents to be “mirror imaged”

Page 32 of 58

copying all of Petitioners data thereby invading Petitioners privacy and
damaged Petitioners property due to Respondents allegation that Petitioner
proof of Respondents illegal acts were actually Respondent POE’s “trade
secrets” absent anything other than Respondents testimony alleging items
which failed to meet the statutory definition of “trade secrets”. The Petitioners
personal property of a laptop and Iphone were held for seven weeks by the trial
courts appointed “IT Expert” then damaged as petitioners hard drive was
completely wiped clean of all files, over seven years worth of work and personal
files as well as the loss of valuable software and the property was physically
damaged

showing

damage

bring

being

dropped

with

cracks

and

malfunctioning. These actions violated Petitioners constitutional rights per
U.S. Const. Amend. 4, U.S. Const. Amend. 5 and U.S. Const. Amend. 14.

19. When Petitioner still had legal access to the documents supporting Plaintiffs
allegations of Respondents illegal acts and used them to support Petitioners
pleadings before the trial court and in a related case, the trial court held
Petitioner in contempt and struck Petitioners pleadings with prejudice after
the trial court received ex-parte communications from Respondent POE’s
attorney urging the contempt. The void on its face TI has been repeatedly used
by all Respondents in this case and the related case before Judge Williams to
avoid complying with discovery. The trial court refused to allow Petitioners
pleadings to be scheduled for hearing. The trial court refused to grant

Page 33 of 58

sanctions or hold Respondents in contempt for their actions. The trial court
refused to issue orders on Petitioners motions. These actions denied petitioner
due process and equal protections under U.S. Const. Amend. 14.

20. The trial court refusing to adhere to the statutorily required stay, held a pre­
trial hearing where the trial court ordered the Petitioner to destroy evidence or
be held in contempt and be placed in jail. During the statutorily required stay
based on Plaintiffs motions for recusal and interlocutory appeals, the trial
court issued seven orders. The district and COA clerks then denied Petitioner
records as required to be released by statute resulting in Petitioners
Mandamus (0518-00774-CV) being denied by the COA for lack of records. The
COA and TX Supreme Court denied Petitioner due process in this manner as
well denying records and review on the merits, dismissing for lack of records
two days later and the TX Supreme Court denied review as did the US
Supreme Court. Since then, Petitioner has not been noticed on issuance of all
orders and has to check the docket. Texas COA and TX Supreme Court have
refused to perform ministerial duty to find orders issued during the stay as
null and void as required by statute. These actions denied petitioner due
process and equal protections under U.S. Const. Amend. 14.

21. As a result of Respondents retaliatory actions, whistleblower Petitioner has
not been paid for work performed, has been blacklisted, petitioners career and
businesses have been defamed and harmed, therefore petitioners income and

Page 34 of 58

earnings have been harmed, petitioners privacy has been invaded when
personal property was unreasonably seized, mirror imaged, damaged
physically and its contents wiped, petitioners dependent children have been
harmed in their lifestyle, stability, and mental health, petitioners education
achievements have been dramatically undermined, petitioners has been
threatened with civil contempt incarceration for refusing to destroy evidence,
incarceration would harm Petitioner and Petitioner’s minor daughter,
Petitioners health has been harmed. Yet, the most egregious harm to
Petitioner has been Respondents interference with Petitioners freedom of
religion.

22. Plaintiff is a devout practicing Christian who relocated from Miami in 2014,
leaving family behind, to live in Dallas to be a member at a specific church,
Oak Cliff Bible Fellowship under Pastor Dr. Tony Evans. Plaintiff and
Plaintiffs child was very involved with church activities and relied upon church
members as a support network. Facts Respondents knew and therefore
purposefully interfered with to try and force Petitioner to drop the counter­
claim and leave town, after all other efforts failed, by interfering with
Petitioners freedom of religion by issuing a subpoena for deposition and
production on Petitioners pastor, Dr. Tony Evans, absent advance notice for
subpoena on 3rd parties as required by court rules thereby preventing a motion
to

squash,

abusing

process

to

illegally

gain

access

to

privileged

communications between Petitioner and petitioner’s pastor and making

Page 35 of 58

Petitioners pastor a 3rd party to the case, causing termination of Petitioners
ability to continue as a member to that church nor have any home church
because attorneys for Respondents informed Petitioner that if Petitioner
discussed or asked for prayer from any church or pastor in regards to the
matters before the court and impacting Petitioners life in every way, such
parties would be subject to disclosure and threat of deposition and subpoena.
Respondents and their attorneys have thereby intentionally interfered with
Petitioners freedom of religion, violations of U.S. Const. Amend. 1.

23. If this Court refuses to hear and rule on Plaintiffs Petition, it further violates
Petitioner’s constitutional rights which have already been harmed these last
four years and counting. If this Court fails to grant Writ of Certiorari it allows
orders which demonstrate clear error, bias, are contrary to law and justice to
stand undermining the credibility of the Court system and furthers inequity in
the courts against indigent and pro se parties. Combined with strict
application and ambiguous language of a state anti-Slapp statute, which has
since been further weakened by state legislators, there is little to no protection
for the exercise of constitutional rights due to a lack of federal anti-Slapp
legislation causing whistleblower Petitioner ongoing egregious harm via abuse
of process and violations of Petitioners constitutional rights against
unreasonable search and seizure, to freedom of speech, right to association,
right to petition, right to participate in government, and freedom of religion for

Page 36 of 58

four years and counting for retaliatory and baseless claims, violations of U.S.
Const. Amend. 1, 4, 5 and 14.

24. If this Court fails to grant Writ of Certiorari, it allows violation of Petitioner’s
right to due process and equal protections under the US Constitution’s Fifth
and Fourteenth Amendment due to the state’s high court refusal to perform
duty to review due to clear error and prevention of record, and Texas Courts
refusal to perform ministerial act to find orders issued during statutorily
required stay are null and void.

25. Per TEX. R. APP. PROC. § 56.1(b)(1), the Texas Supreme Court had a duty to
review the petition unless there is no error that requires reversal or lacks
importance to jurisprudence of the state. The Texas ani-Slapp statute had
ambiguous language which case law more clearly defined to find that the
claims in the underlying cause must be dismissed, not just the procedural legal
action as the Court of Appeals asserts revealing reversible error that must be
corrected in the interest of law and justice.

26. Further, there were clear errors that have occurred in this case which require
reversal as contained in Petitioners seven issues before the Court, including
the trial court issuing orders during statutorily required stay. The denial of
this Court to review and correct the clear errors denies the Petitioner of

Page 37 of 58

substantial due process. These issues are important matters, because the
issues in this case involve public policy issues, state and federal violations.

27. The trial court failed to allow record in preventing testimony, motions to be
scheduled, or discovery to be obtained. The Fifth COA’s order reveals failure to
review de novo and adopts Respondents unsupported and conclusory claims.
The Texas Supreme Court’s refusal to review therefore denied Petitioner
substantial due process.

28. If this Court denies Petitioners Writ, it undermines the credibility of the
Courts in administering unbiased justice and due process as it allows orders
which are contrary to statutes, case law to stand and allows violations of the
code of judicial conduct.

The trial court, the 5th Court of Appeals and The

Texas Supreme Court have repeatedly denied Petitioner justice in this and
related cases. The orders show clear partiality and injustice undermining
substantial due process and equal protections, concluding and misrepresenting
facts not in evidence.

29. Racial segregation and inequity prevails in Dallas where women, minority
and litigants in poverty are significantly challenged in obtaining justice in
courts, civil and criminal. Pro Se litigants actually obtain rulings in their favor
at JP, district court, court of appeals and supreme court levels are beyond an
anomaly. While there has been some effort to provide resources for Pro Se
litigants for family cases, judges display a clear, open and prevailing bias

Page 38 of 58

against pro se litigants undermining presenting of arguments and giving far
greater weight to attorneys conclusions without demanding support or full
evidentiary hearing and rule against pro se litigants even when contrary to
statute and case law. Based on Petitioner’s observations and research of a
number of Pro Se cases, there is a clear bias in the Texas courts against Pro Se
litigants, even when the Pro Se litigant follows the rules and correctly seeks
application of law, as in this case and related cases.

30. Pro Se Petitioner has had substantial difficulty in getting motions set for
hearing and getting judges to issue rulings, for up to 18 months and counting.
When motions are set, respondents attorneys receive clear and preferential
treatment in time to argue and in courts defer to the attorneys arguments even
absent support. Every order issued by the trial court gave preference to
respondents predominantly without an explanation or findings in fact and law.
The trial court even had ex-parte communications with respondents attorneys
where the attorneys asked the trial court to hold Petitioner in contempt for
Petitioner filing support for Petitioners claims and showing Respondents filed
knowingly false documents in the related case before Judge Williams to
undermine the discovery process and the trial court in fact, immediately
subsequent to the ex-parte communication, held Petitioner in contempt and
struck Petitioners claims with prejudice. Then the COA adopted the
respondents conclusory and baseless claims as established facts and the Texas
Supreme Court denied review. Respondents, Texas courts and officers actions

Page 39 of 58

are egregious, coordinated and determined prevention of justice against a
whistleblower, indigent pro se party and is a public policy issue.

31. The lack of justice in Texas Courts is well documented revealing bias based
on political contributions by attorneys and business entities as well as
appointment without election. See Exhibit 4• Texas NAACP Addresses
Important Issues to Facilitate the Discussion Regarding Proposed Changes for
Selecting Members of Texas’ Judiciary In the Aftermath of the George Floyd
Tragedy (and its Appendix).

32. The trial court in this case, Bonnie Goldstein, is currently pursuing election
to the Fifth Court of Appeals, Dallas. The attorney for DFW Airport, Henry
Wehrmann is listed as a sponsor Judge Goldstein’s fundraising campaign. See
Exhibit 5. While campaign reports are still outstanding for the 2020 election,
Littler & Mendelson (POE’s original attorneys), Sheef & Stone (POE’s current
attorney) are both large firms and major contributors regularly appearing
before the Fifth Court of Appeals & Texas Supreme Court. Sheef & Stone is
also a Cornerstone contributor to Southern Methodist University’s School of
Law, the predominant law school of Texas justices. Additionally, Brandy
Chambers (POE’s attorney) is currently seeking election to the Texas House.
33. Scheef & Stone has donated $36,000 directly to 12 Republican candidates.
While that may not appear like much, nothing prevents Scheef & Stone from

Page 40 of 58

donating to the Texas Republican Party and through that entity contribute to
Appellate and Supreme Court Candidates. See Exhibit 6.

34. While the 2020 election season is not over and all reports are not yet in, per
the nonpartisan, nonprofit National Institute on Money in Politics (NIMP),
“Follow the Money.org” website, the current Texas Supreme Court Justices
have received a total of $13.582.520 in campaign donations. In the last 3
elections 2016, 2018 and 2020 (to date, all reports not final), total contributions
to Texas Appellate courts and Texas Supreme courts were $17.9M and $9.6M
respectively. With just 46 days left until the 2020 general election, Petitioner
has seen no commercials, no yard signs, no mailers, no advertising at all for
any of these candidates nor any Republican judge for the 5Th Court of Appeal,
Dallas or Texas Supreme Court race during the last 6 years. The following
donation totals for Texas Supreme Court are detailed in Exhibit 6. In
summary• Justice Hecht, $5 Million
• Justice Guzman, $2,138 Million
• Justice Lehrmann, $1,663 Million
• Justice Busby, $ 1.5 Million
• Justice Boyd, $844 Thousand
• Justice Devine, $ 884 Thousand
• Justice Bland, $884 Thousand

Page 41 of 58

• Justice Blacklock, $639 Thousand

35. Further, due to Covid-19, the burden and harm to pro se and indigent parties
is even worse due to dependence on access to public law libraries and one hour
per day limitation on Westlaw case research. Local law libraries are usually
housed within state courthouses which continue to be closed to the public for
months. Therefore, indigent and pro se parties lack access to resources to
prepare petitions and motions throughout the US court system.

36. Government and court system are established based on Biblical principles.
Romans 13:1-7. Judges are called and appointed to show no partiality, to give
justice to the poor. Exodus 18:13-27, Deuteronomy 16:18-20, Leviticus 19;15,
James 2:1-13, Luke 18:1-8, Proverbs 21:3, 13 and 15. Each judge swears an
oath and is obligated to adhere to Codes of Judicial Conduct. Perhaps there is
justice in many cases. However, even one case that allows injustice that affects
people’s lives and should not be considered a light matter.
PRAYER
Petitioner respectfully requests the Court grant the Writ of Certiorari and all
relief allowed by law and justice.
CERTIFICATIONS
The pro se Petitioner certifies that this document contains 4,483 as determined by
Microsoft Word 2010.
I hereby certify that a true and correct copy of the foregoing instrument of 5,568
words has been delivered to all parties and/or counsel of record on June 29, 2020,

Page 42 of 58

resubmission with corrections per July 22, 2020 notice from Supreme Court Clerk
and Rule 14.5 on September 18, 2020.

1.
2.
3.
4.
5.
6.

Byron Henry: Bvron.Henrv@solidcounsel.com
Andrea Bouressa: Andrea.bouressa@solidcounsel.com
John Scheef: John.scheef@solidcounsel.com
Anna Brooks: Anna.brooks@solidcounsel.com
Brandy Chambers: Brandv@chamberslegalnllc.com
Henry Wehrmann: Henrv@fghwlaw.com

Ruth Torres
PO Box 224441, Dallas, TX 75222
Email: T.ruth828@icloud.com
(214) 680-9119

Page 43 of 58

